     Department of Homeland Security





      FEMA Public Assistance Grant Funds Awarded to 

          St. John the Baptist Parish, Louisiana 





DD-13-02                                     January 2013

                                           OFFICE          or INSPECTOR GENERAl ,



                                                            JA N 3 2D13

MEMORANDUM FOR:                            Geo     e A. Robinson
                                           Acti     Regional A
                                           Fed      I Em                                 Agency

FROM:
                                           Assistant                       er~1
                                           Office of Emergency          M~nagement Over~ight


SUBJECT:                                   FEMA Public Assistance Grant Funds Awarded to 5t. 101m the
                                           Baptist Parish, Lauisiana
                                           FEMA Disaster Number 1792-DR-LA
                                           Audit Report 00-13-02

We audited Public Assistance (PA) grant funds aw~rded to St. John th~ Baptist Parish, l ouisiana
(Parish) (PA Identificat ion Number 09S-99095-00). Our audit objective was to determine
whether the Parish accounted for and expended Federal Emergency Management Agency
(FEMA) grant funds according to Federal regulations and FEM A guidelines.

The Louisiana Governor's Office of Hom eland Security and Emergency Preparedness (GOHSEPj,
a FEMA grant~~, awarded the Parish $5.9 mil lion for damages resulting from Hurricane Ike,
declared on September 13, 2008. The award provided 100 percent fEMA fundin 8 for fou r large
projects and six smal l projects.' The audit covered the period September 11, 2008, through
May 3, 2012, the cutoff date of our audit, and included a detailed review of all ten projects (see
exhibit A). As of the cut-off d~te of our audit, the Par is h had claimed $5.1 million.

We conducted this performance audit between January 2012 and August 2012 pursuant to the
Impector General Act of 1978, as amended, and accord ing to generally acc~pt~d government
auditing standards. Those standards require that we plan ~nd perform the audit to o btain
sufficient, appropriate evid ence to provide a reasonable basis for our findings and conclusions
ba sed upon our ~udit objective. We believe that the evidence obtained provides a reaso nable
basis for our f indings and conclusions based upon our audit objective. We conducted this audit
according to the statutes, regulations, and FEMA policies and guidelines in effect at the time of
the disaster.




1   F'-'<leral rer,ulatiC>/" in eff",,! at the time of t~ di"lSter ..:'t th~ I" r~c pro.i<"'t th ""ho ld "\ $60,900
                              OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security

We interviewed FEMA, GOHSEP, and Parish officials; reviewed judgmentally selected project
costs (generally based on dollar value); and performed other procedures considered necessary
to accomplish our objective. We did not assess the adequacy of the Parish’s internal controls
applicable to grant activities because it was not necessary to accomplish our audit objective.
We did, however, gain an understanding of the Parish’s method of accounting for disaster
related costs and its procurement policies and procedures.


                                       RESULTS OF AUDIT

The Parish accounted for FEMA grant funds on a project-by-project basis as required by Federal
regulations. However, the Parish’s claim included $579,348 of unsupported costs (finding A)
and $333,294 of ineligible costs (finding B); and, although the Parish awarded contracts for
disaster work competitively, it did not always follow other required procurement standards
(finding C). These conditions occurred largely because GOHSEP did not always fulfill its
responsibilities regarding grant management.

Accordingly, we recommend that FEMA disallow the $912,642 in unsupported and ineligible
costs. FEMA should also deobligate $42,975 of unused Federal funds and put those funds to
better use (finding D); and ensure that GOHSEP takes steps to improve its grant management
procedures (finding E).

Finding A: Unsupported Costs

The Parish could not provide adequate documentation to support $579,348 in costs incurred or
authorized for contract work, force account labor, equipment rentals, and direct administrative
costs (DAC) for four projects (see table 1). Without adequate documentation, GOHSEP cannot
assure FEMA that the Parish incurred eligible costs to complete these projects.

                                   Table 1: Unsupported Costs

    Project     Award      Category    Contract        Force Equipment
    Number     Amount      Of Work2     Costs         Account  Rental      DAC        Totals
     1222     $5,011,636       A       $      0 $     0         $     0 $ 98,267 $ 98,267
     1217        352,453       A        345,542       0               0    6,911 352,453
     1132        128,520       B          8,059 44,545           75,916        0 128,520
     1224          5,505       A              0       0               0      108      108
     Totals   $5,498,114               $353,601 $44,545         $75,916 $105,286 $579,348



2
    Category A is debris removal work and Category B is emergency protective measures.

www.oig.dhs.gov                                   2                                      DD-13-02
                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security

Federal regulations at 44 CFR 13.20(b)(2) require subgrantees to maintain records that
adequately identify the source and application of funds provided for financially assisted
activities; and Federal Cost Principles at 2 CFR part 225, appendix A, section C.1.j, state that
costs must be adequately documented to be allowable under Federal awards. 3 In addition,
FEMA Disaster Assistance Policy 9525.9, section D (dated March 12, 2008), states that DAC
must be tracked, charged, and accounted for directly to a specific project, and are limited to
actual, reasonable costs. FEMA has stated that DAC must be adequately supported even for
small projects, which require documentation to prove the work was completed, but typically do
not require documentation to support costs incurred.

Regarding Projects 1132 ($128,520 for emergency protective services) and 1217 ($352,453 for
debris removal), Parish officials stated that they incurred costs for these two projects more
than 2 years ago, but have not submitted a claim for them. When we reviewed documentation
for all projects, the folders for these two projects were empty. Parish officials said they are
reviewing documents and expect to meet with Parish administration officials to determine how
to handle these projects. A GOHSEP official said that they are working with the Parish to submit
all eligible costs and close out the projects.

FEMA authorized (obligated) $105,286 on Projects 1217, 1222, and 1224 for anticipated DAC.
However, Parish officials stated that they did not request the DAC and did not have
documentation to support DAC at the time of our audit. The Parish is aware of the Federal
requirements for supporting and requesting DAC.

Therefore, if the Parish claims the $579,348, FEMA should disallow those costs as unsupported
unless the Parish can provide adequate documentation to support them. If the Parish does not
claim the costs, FEMA should deobligate the funds and put them to better use (see finding D).

Finding B: Ineligible Costs Not Related to the Disaster

As shown in table 2 below, the Parish claimed $333,294 for five projects without adequate
evidence that the damages were the result of Hurricane Ike. To be eligible for financial
assistance, an item of work must be required as the result of the major disaster event (44 CFR
206.223(a)(1)). Therefore, we question $333,294 as ineligible costs.




3
  Office of Management and Budget (OMB) Circular A-87, in effect at the time of the disaster, was relocated to
2 CFR, Part 225 on August 31, 2005.


www.oig.dhs.gov                                         3                                               DD-13-02
                                OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

                                    Table 2: Ineligible Costs


                      Project      Award        Category         Ineligible
                      Number      Amount        Of Work           Amount
                       1635        $177,184         A             $177,184
                       1634          48,566         A               48,566
                       1576          45,951         A               45,951
                       1636          44,396         A               44,396
                       1219          17,197         A               17,197
                       Totals      $333,294                       $333,294

Projects 1635, 1634, 1576, and 1636 were for debris removal work that started more than 2
years after Hurricane Ike occurred. According to 44 CFR 206.204(c)(1), the deadline for
completing debris clearance is 6 months after the disaster declaration. Extensions may be
granted only when allowed by the grantee or when based “on extenuating circumstances or
unusual project requirements beyond the control of the subgrantee” according to 44 CFR
206.204(c)(2)(i)-(ii). FEMA officials stated that the Parish completed the work without a formal
time extension and did not request or obtain approval for an extension until April 2011, or 2½
years after the disaster declaration. In addition, the contract for performing the work stated
that it was for “drainage excavation of Parish annual contract”; therefore, the scope of work
appeared to be normal maintenance work, rather than emergency work. Federal regulation 44
CFR 206.224 authorizes the removal of debris and wreckage from publicly and privately owned
lands and waters only when such removal is in the public interest. Among other possibilities
such removal is in the public interest when it is necessary to (1) eliminate immediate threats to
life, public health, and safety; or (2) eliminate immediate threats of significant damage to
improved public or private property according to 44 CFR 206.224(a)(1)-(2). FEMA officials could
not adequately explain how they determined that the four debris removal projects were
Hurricane Ike-related, rather than normal or annual canal maintenance (for example, according
to Parish records they had problems with beavers building dams and blocking drainage).

The scope of work for Project 1219 was for monitoring debris removal that FEMA approved on
Project 744. However, Project 744 was for the removal of debris caused by Hurricane Gustav;
therefore, the cost of monitoring the debris may be eligible under Hurricane Gustav, but it is
not eligible under Hurricane Ike. FEMA agreed with our finding and stated that the project
should have been written under Hurricane Gustav and they would correct Projects 744 and
1219.

Therefore, we question $333,294 for the five projects as ineligible because they do not appear
to be the direct result of Hurricane Ike. For four projects, FEMA could not adequately explain
how the debris was Hurricane Ike-related or how FEMA could consider the debris to be an
immediate threat to life, public heath, and safety when the Parish did not start removing it for


www.oig.dhs.gov                                 4                                        DD-13-02
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

over 2 years after Hurricane Ike occurred. The remaining project (1219) was the result of
Hurricane Gustav, rather than Hurricane Ike.

Finding C: Contracting

The Parish competitively awarded six of seven contracts totaling $5.1 million for disaster-
related work. The non-competitive contract was for $36,983 to drain standing flood waters
during exigent circumstances. However, the Parish did not always comply with other Federal
procurement standards at 44 CFR 13.36. Specifically, the Parish did not always comply with the
following standards listed at 44 CFR 13.36—

   •	 Including certain required contract provisions such as those for records retention and
      termination for cause (13.36(i)). These provisions document the rights and
      responsibilities of the parties and minimize the risk of misinterpretations and disputes.
   •	 Preparing a cost or price analysis in connection with every procurement action,
      including contract modifications (13.36(f)(1)). Performing a cost or price analysis
      decreases the likelihood of unreasonably high or low prices, contractor
      misinterpretations, and errors in pricing relative to the scopes of work.
   •	 Taking all necessary affirmative steps to assure that minority firms, women’s business
      enterprises, and labor surplus area firms are used when possible (13.36(e)).

We did not question any costs related to contracting because the Parish otherwise properly
procured its disaster-related contracts and because it awarded $4.9 million of the $5.1 million
in contract work to a minority-owned firm. However, for future Federally-funded disaster
contracts, the Parish should ensure that it complies with all Federal procurement standards.

Finding D: Unused Funds

The Parish claimed $4,870,394 to complete drainage clean-up work under Project 1222. This
amount is $141,242 less than the $5,011,636 FEMA estimated and obligated for this project.
The $141,242 difference consists of the $98,267 in unsupported DAC that we questioned in
finding A and $42,975 that the Parish did not use to complete the work. Federal regulations at
44 CFR 206.205(b)(1) require grantees to make an accounting to the FEMA Regional
Administrator of eligible costs for each approved large project “as soon as practicable after the
subgrantee has completed the approved work and requested payment.” The Parish’s quarterly
reports indicate that the Parish completed the project by October 25, 2011. We consider 6
months after the subgrantee has completed the approved work and requested payment a
reasonable amount of time for the grantee to complete its reviews of costs claimed and submit
an accounting of eligible costs to FEMA. Therefore, GOHSEP should have already submitted
closeout information for the project and requested the deobligation of unused funds.
Therefore, FEMA should deobligate the $42,975 of unused Federal funds from Project 1222 and
put those funds to better use. In addition, GOHSEP should also have completed reviews of



www.oig.dhs.gov                                 5	                                      DD-13-02
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

costs for other completed projects, such as the other four projects discussed in finding A above.
As stated in finding A, FEMA should also deobligate and put to better use the unsupported
$579,348 if the Parish does not claim these costs (the $579,348 includes the $98,267 DAC in
project 1222).

Finding E: Grant Management

GOHSEP officials did not always fulfill their responsibilities regarding grant management. The
majority of findings in this report occurred because GOHSEP, as the grantee, did not monitor
quarterly reports, ensure projects were progressing towards completion, or report delays to
FEMA. According to 44 CFR 13.37(a)(2), the grantee is required to ensure that subgrantees are
aware of requirements imposed on them by Federal regulations. Further, 44 CFR 13.40(a)
requires the grantee to manage the day-to-day operations of subgrant activity and monitor
subgrant activity to ensure compliance with applicable Federal requirements. Grantees must
also submit a quarterly progress report for each open large project (44 CFR 206.204(f)).
Progress reports are critical to ensuring that FEMA and grantees have up-to-date information
on public assistance program grants. According to FEMA’s Public Assistance Guide (FEMA 322,
June 2007, p.141), the progress reports should include—

   •	 The status of the project, such as "in design" or "percentage of construction 

      completed”;

   •	 Time extensions granted, if any;
   •	 A projected completion date;
   •	 The amount of expenditures and amount of payment for each project; and
   •	 Any problems or circumstances that could delay the project or result in noncompliance
      with the conditions of the FEMA approval.

Parish officials submitted incomplete reports to GOHSEP, and the reports did not contain key
information needed to monitor the grant adequately. GOHSEP passed along this information in
its quarterly progress reports to FEMA without supplementing the reports with the missing
information. As a result, GOHSEP did not properly track and monitor the progress of open
projects or attempt to close them. GOHSEP’s quarterly progress reports did not contain
accurate information on time extensions, project completion dates, and the amount of costs
incurred. The reports also did not identify any problems or circumstances that could delay the
project or result in noncompliance.

It is FEMA’s responsibility to hold grantees accountable for proper grant administration.
Therefore, FEMA should ensure that GOHSEP takes steps to improve its grant management
procedures. Federal regulations establish uniform administrative rules for grants and
procedures for public assistance project administration. These rules and procedures require
that grantees and subgrantees have fiscal controls, accounting procedures, and project
administration procedures that provide FEMA assurance that: (1) grant and subgrant financial



www.oig.dhs.gov                                6	                                       DD-13-02
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

and project status reports are accurately reported; (2) expenditures can be traced to a level
that ensures that funds have not been used in violation of applicable statutes; and (3) grantees
and subgrantees adhere to the specific provisions of applicable Federal regulations when
administering public assistance grants.


                                   RECOMMENDATIONS

We recommend that the Acting Regional Administrator, FEMA Region VI:

Recommendation #1: Disallow unsupported costs totaling $579,348 unless the Parish can
provide adequate documentation to support them (finding A). Also, see recommendation #3
below.

Recommendation #2: Disallow ineligible costs totaling $333,294 unless FEMA determines the
work is a direct result of Hurricane Ike (finding B).

Recommendation #3: Deobligate $42,975 in unused Federal funds and put those funds to
better use (finding D). If the Parish does not claim the costs recommended for disallowance in
recommendation #1 above, FEMA should deobligate them and put them to better use.

Recommendation #4: Ensure that GOHSEP takes steps to improve its grant management
procedures (findings C and E), to include procedures for—
   •	 Informing subgrantees of their responsibility to comply with Federal requirements,
   •	 Monitoring subgrantees’ operations to ensure compliance with Federal requirements,
   •	 Performing timely closeouts of completed large and small projects and
   •	 Submitting quarterly progress reports that comply with FEMA’s Public Assistance Guide
      for all uncompleted large projects.


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

We discussed the results of our audit with Parish officials during our audit and included their
comments in this report, as appropriate. We also provided a draft report in advance to FEMA,
GOHSEP, and Parish officials and discussed it at exit conferences held with FEMA officials on
August 6, 2012, and with GOHSEP and Parish officials on October 1, 2012. FEMA generally
agreed with our findings and recommendations. GOHSEP and Parish officials generally declined
to make comments with our findings and recommendations.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible parties



www.oig.dhs.gov                                7	                                       DD-13-02
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

and any other supporting documentation necessary to inform us about the current status of the
recommendation. Until your response is received and evaluated, the recommendations will be
considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination. Significant contributors to this report were Tonda Hadley,
Judy Martinez, and Ronald Jackson.

Should you have questions please call me at (202) 254-4100 or your staff may contact
Tonda Hadley, Director, Central Regional Office, at (214) 436-5200.




www.oig.dhs.gov                                8                                       DD-13-02
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

                                                                                  EXHIBIT A

                                Schedule of Projects Audited

                            September 11, 2008 to May 3, 2012 

                           St. John the Baptist Parish, Louisiana

                            FEMA Disaster Number 1792-DR-LA


                                                                       Total      Finding D
Project      Award       Category     Finding A        Finding B     Questioned   (Unused
Number       Amount      Of Work    (Unsupported)     (Ineligible)     Costs       Funds)
  1222      $5,011,636      A             $ 98,267       $      0      $ 98,267    $42,975
  1217         352,453      A              352,453              0       352,453          0
  1635         177,184      A                    0        177,184       177,184          0
  1132         128,520      B              128,520              0       128,520          0
  1634          48,566      A                    0         48,566        48,566          0
  1576          45,951      A                    0         45,951        45,951          0
  1636          44,396      A                    0         44,396        44,396          0
  1271          36,983      B                    0              0             0          0
  1219          17,197      A                    0         17,197        17,197          0
  1224           5,505      A                  108              0           108          0

 Totals     $5,868,391                    $579,348       $333,294      $912,642    $42,975




www.oig.dhs.gov                              9                                     DD-13-02
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security

                                                                                  EXHIBIT B 


                                           Distribution List 

                                St. John the Baptist Parish, Louisiana 

                                FEMA Disaster Number 1792-DR-LA 


Department of Homeland Security

Secretary
Chief Financial Officer
Under Secretary for Management
Acting Chief Privacy Officer
Audit Liaison, DHS

Federal Emergency Management Agency

Administrator
Chief of Staff
Chief Financial Officer
Chief Counsel
Director, Risk Management and Compliance
Interim Director, FEMA Louisiana Recovery Office
Audit Liaison, FEMA Louisiana Recovery Office
Audit Liaison. FEMA Region VI
Audit Liaison, FEMA (Job Code G-12-013)

Grantee

Director, Louisiana Governor’s Office of Homeland Security and Emergency Preparedness
Audit Liaison, Louisiana Governor’s Office of Homeland Security and Emergency Preparedness

State

Louisiana Legislative Auditor

Subgrantee

President, St. John the Baptist Parish, Louisiana




www.oig.dhs.gov                                   10                                DD-13-02
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
